         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL




                                        Catalyst for Improving the Environment


Evaluation Report



       EPA Should Improve Oversight
       of Long-term Monitoring at
       Bruin Lagoon Superfund Site
       in Pennsylvania
       Report No. 10-P-0217

       September 8, 2010
Report Contributors:                              Carolyn Copper
                                                  Patrick Milligan
                                                  Denise Rice
                                                  Martha Chang




Abbreviations

EPA             U.S. Environmental Protection Agency
NPL             National Priorities List
O&M             Operation and Maintenance
OIG             Office of Inspector General
OU              Operable Unit
ROD             Record of Decision
RPM             Remedial Project Manager
SSC             Superfund State Contract


Cover photo:	     A view from a resident’s yard of the capped and stabilized sludge mound
                  at the Bruin Lagoon Superfund Site, Bruin, Pennsylvania, November 2007.
                  (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                              10-P-0217
                                                                                                    September 8, 2010
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review
                                   EPA Should Improve Oversight of Long-term
The Office of Inspector            Monitoring at Bruin Lagoon Superfund Site in
General (OIG) is testing
long-term monitoring results       Pennsylvania
at Superfund sites the U.S.
Environmental Protection            What We Found
Agency (EPA) has deleted
from the National Priorities       We found that Pennsylvania did not collect ground water samples from the Bruin
List (NPL). Bruin Lagoon           Lagoon Superfund Site for 6 years, from 2001 to 2007. EPA Region 3 managers
Superfund Site, located in
                                   told us they made a deliberate, but undocumented, decision to not use oversight
Bruin, Pennsylvania, is one
of eight sites being reviewed.     authority to require the State to conduct ground water sampling at the Site.
The OIG obtained ground            Long-term monitoring of the ground water is necessary to ensure that the remedial
water samples from the Site        action remains protective of human health and the environment. In June 2007,
and conducted a site               Pennsylvania resumed sampling ground water at the Site. The Region’s 2009
inspection.                        Five-Year Review, which included these results, indicated that the Site was
                                   protective. Nonetheless, gaps in long-term monitoring may result in a failure to
Background                         detect conditions that show a clean-up remedy is not protecting human health and
                                   the environment. In addition, of the 169 chemicals we analyzed, levels for 15
Bruin Lagoon was added to          were different from Region 3’s historical results. However, the differences were
the Superfund NPL in 1983.         not significant enough to indicate that the remedy was not protective of human
The Site was contaminated          health and the environment.
with inorganic contaminants,
metals, oil and grease, volatile   We also found transcription errors in data in the Region’s 2004 Five-Year Review
and semivolatile organic           that were also carried over into the most recent 2009 Five-Year Review. These
compounds, and organic and         errors occurred because the Region does not have quality assurance procedures to
inorganic liquid sludge. The       check summary data that are generated from laboratory reports. The data errors
Site was deleted from the NPL      do not adversely impact the Region’s protectiveness determination for the Site, but
on September 18, 1997.             the Region’s lack of internal controls to detect data errors can alter Site
                                   protectiveness determinations.

                                    What We Recommend
For further information, contact
our Office of Congressional,       We recommend that Region 3 improve its oversight, correct data errors in the
Public Affairs and Management      2009 Five-Year Review, acknowledge the 2004 errors, and implement quality
at (202) 566-2391.                 assurance procedures to ensure the accuracy of data included in Five-Year Review
                                   reports and used for Site protectiveness decisionmaking. Region 3 agreed with
To view the full report,
click on the following link:       OIG recommendations and proposed additional acceptable corrective actions.
www.epa.gov/oig/reports/2010/
20100908-10-P-0217.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                         September 8, 2010

MEMORANDUM

SUBJECT:	              EPA Should Improve Oversight of Long-Term Monitoring at
                       Bruin Lagoon Superfund Site in Pennsylvania
                       Report No. 10-P-0217


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Shawn M. Garvin
                       Region 3 Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains the findings from our
sampling at the Bruin Lagoon Superfund Site and corrective actions the OIG recommends.
EPA Region 3 concurred with and provided comments on the recommendations of the draft
report. This report represents the opinion of the OIG and does not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA managers in
accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, then adding in the contractor costs –
is $375,007.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public Website,
along with our comments on your response. Your response should be provided in an Adobe PDF
file that complies with the accessibility requirements of section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective action plan
for agreed upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General, at (202) 566-0832 or najjum.wade@epa.gov; or Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov.
EPA Should Improve Oversight of Long-term Monitoring                                                                        10-P-0217
at Bruin Lagoon Superfund Site in Pennsylvania




                                  Table of Contents 


Chapters 

   1    Introduction ........................................................................................................      1         


                Purpose .......................................................................................................    1             

                Background .................................................................................................       1             

                Noteworthy Achievements ..........................................................................                 2             

                Scope and Methodology..............................................................................                3             


   2    Oversight Gaps and Undetected Errors...........................................................                            4         


                Region 3 Did Not Ensure Site Sampling Requirements Were Met..............                                          4

                Transcription Errors in Five-Year Review Data ...........................................                          6

                Conclusion...................................................................................................      7                 

                Recommendations ......................................................................................             7             

                EPA Region 3 Response and OIG Evaluation ............................................                              7


        Status of Recommendations and Potential Monetary Benefits .....................                                            9




Appendices 

   A    OIG Sample Results Compared to Region 3 Historical Sampling Results ...                                                   10 


   B    EPA Region 3 Response to Draft Report and OIG Evaluation .......................                                          12


   C    Distribution .........................................................................................................    16     

                                                                                             10-P-0217 





                                           Chapter 1

                                           Introduction

Purpose
                 The Office of Inspector General (OIG) of the U.S. Environmental Protection
                 Agency (EPA) is evaluating long-term monitoring at Superfund sites deleted from
                 the National Priorities List (NPL). The overall objective is to evaluate whether
                 EPA has valid and reliable data on the conditions of these sites. Bruin Lagoon
                 Superfund Site is one of eight sites being reviewed. We collected ground water
                 samples for nine monitoring wells and conducted a site inspection. We compared
                 our results to past results reported by EPA Region 3.

Background

                 The Site is located about 45 miles north of Pittsburgh in Bruin, Pennsylvania,
                 which is located in Butler County. The Site occupies over 4 acres along the
                 western bank of the South Branch of Bear Creek, approximately 7 miles upstream
                 from the creek’s merger with the Allegheny River. From 1937 to 1978, activities
                 such as coal washing and oil refining were conducted at and around the Site. The
                 Site was contaminated with inorganic contaminants, metals, oil and grease,
                 volatile and semivolatile organic compounds, and organic and inorganic liquid
                 sludge from coal washing and oil refining. Bruin Lagoon was built to contain the
                 waste from these activities. In 1968, the lagoon’s earthen dike breached and an
                                             estimated 3,000 gallons of acidic sludge spilled into
                                             the South Branch of Bear Creek, killing over 4 million
                                             fish in the Allegheny River. Evidence of the spill was
                                             observed farther than 100 miles downstream from the
                                             Site, and many downstream communities had to
                                             temporarily shut down their water supply systems.

                                                The Site was placed on the Superfund NPL in
                                                September 1983. The responsible party completed
                                                removal actions on Operable Unit (OU) 1 in 1983 and
                                                OU2 in March 1992. The 1986 Record of Decision
                                                (ROD) documented that the quality of ground water in
                                                the area of Bruin Lagoon was poor due to the local
                                                mining and oil industry in the area. This finding was
                                                evidenced by high iron, manganese, sulfate, and pH
                                                values that exceeded secondary drinking water
View of rip-rap at the capped and stabilized
                                                standards in background wells. Therefore, the
slide mound, used to keep the mound in place.   remedial action was a source control action designed to
(EPA OIG photo)                                 reduce the mobility and toxicity of Site contamination.



                                                      1

                                                                                  10-P-0217


         In addition to controlling the contamination, one of the Site clean-up goals was to
         decrease levels of contamination. According to the 1986 ROD for the Site, the
         Remedial Action Objective for the Site was to contain, reduce, and/or eliminate
         site contaminants identified as representing possible sources of exposure to
         human and other potential receptors. Therefore, the selected remedy included
         onsite stabilization of the sludge with a multilayer cap and postclosure monitoring
         of ground water to ensure the remedial action was effective in reducing the impact
         of the Site on the ground water. Federal and State ground water standards do not
         apply to this Site.

         EPA deleted the Site from the NPL on September 18, 1997, signifying that clean-
         up goals were achieved through remedial action. To help determine whether
         contamination remains under control, the Site is subject to long-term monitoring
         and maintenance for up to 30 years or until the Superfund State Contract (SSC)
         expires in 2020. Roles and responsibilities for EPA and Pennsylvania are
         described in the SSC, including the State’s responsibility to pay for and perform
         the long-term Operation and Maintenance (O&M) portion of the clean-up. An
         O&M plan that describes sampling requirements was approved in 1992. The plan
         is currently being revised to adjust the sampling frequency. Since July 1992, the
         Pennsylvania Department of Environmental Protection has been responsible for
         the long-term monitoring and maintenance of the Site. Site monitoring consists of
         quarterly sampling ground water at the Site through the use of a monitoring well
         network.

         Using data and information obtained from the long-term monitoring program,
         Region 3 must evaluate the Site at least once every 5 years to determine whether
         it is protective of human health and the environment. Results are reported in a
         publicly released Five-Year Review report. In June 2001, EPA issued the
         Comprehensive Five-Year Review Guidance to assist EPA’s Remedial Project
         Managers (RPMs) who have primary responsibility for these reviews.

Noteworthy Achievements

         EPA removed approximately 130,000 gallons of hazardous chemicals and scrap
         tanks during the first phase of remediation (OU1). During the second phase
         (OU2), EPA performed a source control action that consisted of reducing the
         mobility and toxicity of inorganic constituents in the waste through the following
         activities:

            •	 Stabilized liquid sludge to reduce contaminant migration to ground water
               and to adequately support a Site cap.
            •	 Constructed a multilayer Site cap and a ground water diversion trench to
               reduce impact to soils and surface water.
            •	 Constructed dike and embankment improvements to ensure integrity under
               worst-case flood conditions.



                                          2

                                                                                  10-P-0217


            •	 Implemented bedrock neutralization (through use of lime) to reduce
               contamination in the bedrock.
            •	 Eliminated all direct exposure pathways identified in the Site ROD for the
               clean-up.

Scope and Methodology

         We conducted our work in accordance with generally accepted government
         auditing standards. Those standards require that we plan and perform audits to
         obtain sufficient, appropriate evidence to provide a reasonable basis for our
         findings and conclusions based on our objectives. We believe that the evidence
         obtained provides a reasonable basis for our findings and conclusions based on
         our objectives.

         We conducted our work in two phases. During the first phase, from October 2007
         to January 2008, we conducted a site visit, took ground water samples, and
         performed data validation on the sample results. During the second phase, from
         June 2009 to May 2010, we analyzed and compared OIG’s and Region 3’s
         sampling data.

         We interviewed the Region 3 RPM and the State project managers from the
         Pennsylvania Department of Environmental Protection. We reviewed relevant
         guidance and Site documents such as the ROD, Five-Year Reviews, O&M
         reports, and institutional control documents.

         We hired a qualified contractor who collected samples from nine ground water
         wells and conducted a site inspection in November 2007. OIG staff members
         were present during the contractor’s inspection and sampling to ensure that the
         contractor followed proper sampling and site inspection quality assurance
         protocols. The samples collected during the OIG review were analyzed by
         qualified laboratories for volatile and semivolatile organic compounds, metals,
         cyanide, and sulfates.

         To accomplish the comparisons between the OIG’s and the Region’s sampling
         data, we compared our sampling results to the Region’s historical data spanning
         back to 1999. OIG sampling results greater than two standard deviations above
         the average regional historical concentrations were considered different. The
         differences found between OIG’s sample results and Region 3’s historical
         sampling results are in Appendix A. Our review did not include an evaluation of
         the reasons for these differences. However, where we observed differences, we
         determined whether the OIG data indicated an adverse implication for human
         health or environmental protection.

         A draft of this report was sent to the Region 3 Administrator for official comment.
         Region 3’s comments on the draft report are in Appendix B.



                                          3

                                                                                     10-P-0217 





                                Chapter 2

         Oversight Gaps and Undetected Errors
          Pennsylvania did not collect ground water samples from the Bruin Lagoon
          Superfund Site for 6 years – from April 2001 to May 2007. Region 3 managers
          said that based on 9 years of monitoring data, the Region used its enforcement
          discretion to not use its oversight authority to require Pennsylvania to conduct
          ground water sampling. The Region’s decision to use its enforcement discretion
          was undocumented. Long-term monitoring of the ground water is required to
          ensure that the remedial action has been effective. Pennsylvania resumed
          sampling in June 2007 and sampling results showed the Site remains safe for
          humans and the environment. Our independent sampling results differed from
          Region 3’s historical results for 15 chemicals. However, the differences do not
          indicate that the remedy does not protect human health and the environment. We
          also found transcription errors in the data summary tables in Region 3’s 2004 and
          2009 Five-Year Reviews. The data errors do not adversely impact the Region’s
          protectiveness determination for the Site, but the Region’s lack of internal
          controls to detect data errors could result in improperly supported or incorrect Site
          protectiveness determinations going undetected.

Region 3 Did Not Ensure Site Sampling Requirements Were Met

          From April 2001 to May 2007, Pennsylvania did not collect onsite ground water
          samples. Although the State monitored residential wells, it did not conduct onsite
          ground water sampling established by the Site O&M plan and a contract between
          the State and EPA. According to Region 3 managers, the Region decided to use
          its enforcement discretion and not take action against the State for not adhering to
          the sampling requirements at Bruin. The managers said this decision was based
          on 9 years of monitoring data that showed no problems at the Site. However, the
          Region did not document this use of its enforcement discretion.

          Pennsylvania conducted quarterly onsite ground water sampling for the first
          9 years of long-term O&M, from February 1992 to April 2001. According to
          Pennsylvania Site project managers, the State stopped its quarterly onsite ground
          water sampling because of management turnover and funding shortages. RODs
          provided for an evaluation of the feasibility of a different sampling frequency at
          the Site, but these procedures were not followed. Therefore, quarterly onsite
          ground water sampling is the current requirement, as defined in the O&M plan
          and the State contract. In 2009, Region 3 and Pennsylvania discussed the
          sampling frequency. The results of this assessment have not been finalized and
          the current sampling frequency remains quarterly.




                                            4

                                                                                                          10-P-0217 



                  The Region 3 Site RPM said he was aware that Pennsylvania had stopped
                  sampling. He said that in 2003 he contacted managers in Pennsylvania to remind
                  them they had a responsibility to sample. The Region 3 RPM was aware that
                  Pennsylvania was having management turnover and budget issues. In the 2004
                  Five-Year Review, Region 3 identified the lack of ground water sampling data as
                  an issue and included a recommendation for Pennsylvania to resume sampling.1
                  In March 2006, the RPM again contacted Pennsylvania to have sampling
                  resumed. At that time, Pennsylvania managers assured the RPM that funding was
                  available and they were planning to resume sampling per the SSC, but did not
                  specify when. When sampling had still not resumed by May 2007, the RPM
                  informed Pennsylvania that he was very concerned about not having enough
                  monitoring data and not being in compliance with the recommendations in the
                  2004 Five-Year Review. Pennsylvania resumed sampling the following month, in
                  June 2007.

                  Region 3 is responsible for oversight at the Site to ensure that O&M is being
                  performed adequately and to determine when ground water monitoring can be
                  reduced or terminated. Roles and responsibilities for Region 3 and Pennsylvania
                  are described in the State contract, which specifies that the State is required to pay
                  for and perform the long-term O&M portion of the clean-up at the Site. Other
                  than several contacts made by the Site RPM with the State project manager,
                  Region 3 did not use its oversight authority to ensure Pennsylvania conducted
                  sampling as required by the State contract. The State contract establishes that
                  Pennsylvania will perform the O&M at the Site for up to 30 years. The contract
                  also includes a dispute resolution clause that authorizes, but does not require, EPA
                  to take action against Pennsylvania for noncompliance. During 2009, Region 3
                  and Pennsylvania agreed to suspend quarterly ground water monitoring at the Site
                  until the two established an appropriate monitoring frequency for targeted
                  contaminants and updated the current O&M plan. Although these actions were
                  estimated for completion by September 2009, a revised O&M plan has not been
                  finalized. However, Region 3 and Pennsylvania have agreed to annual ground
                  water sampling. According to the Region, a revised O&M plan is expected to be
                  finalized by August 30, 2010.

                  As part of our review, we conducted our own sampling and compared our results
                  to Region 3’s historical sample results. Because EPA did not do sampling from
                  April 2001 to May 2007, we only made our comparison to results before and after
                  that time period. Details are in Appendix A. OIG sampling results that were
                  greater than two standard deviations above the average Region 3 historical
                  concentrations were considered different. Of the 169 different chemicals, the
                  OIG results for 15 chemicals differed from the Region’s historical results. The
                  compounds with which we found differences were acetone, aluminum, barium,


1
 Region 3 had less than half of the data needed for the 2004 review. However, the Region maintains that the
sampling data from the first eight quarters were sufficient to make a protectiveness determination at that time. The
scope of our work did not include an independent evaluation of that position.


                                                          5

                                                                                   10-P-0217 



          cadmium, calcium, cobalt, magnesium, manganese, nickel, potassium, selenium,
          sodium, sulfate, vanadium, and zinc.

          The differences between our data and the Region’s do not adversely impact the
          Region’s 2009 determination that the Site is protective of human health and the
          environment. The ROD requires that the downgradient wells have less
          contamination than the upgradient wells to demonstrate that contamination is not
          leaving the Site. With the exception of barium, potassium, and sodium, for which
          OIG’s data were different from the Region’s data, the downgradient well
          contained less contamination than the upgradient wells. We do not view
          potassium and sodium as a cause for concern, because EPA has issued only a
          drinking water advisory limit for potassium and sodium and the water at the Site
          is not designated as drinking water. Barium is also not a concern as the level does
          not exceed the federal drinking water or ground water standards.

Transcription Errors in Five-Year Review Data

          We found several errors in the data summary tables that were included in the
          Region’s 2004 Five-Year Review report. The summary tables were generated
          from laboratory sampling reports, but some of the results in the laboratory reports
          were not accurately transposed to the summary tables. We found two categories
          of errors:

             •	 There were six transcription errors in the tables – four errors in the 1991
                data, one in the 1993 data, and one in the 2000 data. In five of the
                instances, the lab reports showed reportable levels of contaminants in the
                well, but the table in the 2004 Five-Year Review reported them as not
                detected or not seen by the lab’s instrument. The sixth instance involved
                the table in the review having a reportable value of the contaminant while
                the lab report indicated the contaminant was not detected.

             •	 The December 2000 data for one well were transposed with the December
                2000 data from another well. This affected the accuracy of the
                concentration amounts reported for five contaminants.

          In February 2009, we informed the Region of these errors. However, the errors
          had not been corrected by the time the Region issued its September 2009 Five-
          Year Review report and were carried over to the 2009 Review. In response to this
          final report, the Region agreed to correct the errors. The data errors in the 2004
          and 2009 review reports are a result of the Region not verifying the accuracy of
          data included in the summary tables. While the review report undergoes several
          internal reviews, those reviews do not include a check for the type of data errors
          we identified.




                                           6

                                                                                   10-P-0217 



Conclusion

         When Pennsylvania did not adhere to ground water sampling requirements,
         Region 3 said it used its enforcement discretion to not require sampling or
         conduct sampling of its own. However, Region 3 did not document that its
         actions in this case reflected the use of enforcement discretion, nor did it
         document criteria used in the decision, until this OIG report. While Region 3 has
         enforcement discretion at Bruin, it has not established the criteria that should be
         used in making decisions about the use of enforcement discretion. A failure to
         enforce Superfund Site sampling requirements can place the public and the
         environment at risk of exposure to chemical hazards and contamination.
         Although Region 3’s use of enforcement discretion in this instance does not have
         adverse implications for human health and environmental protection, the Region
         does not have controls in place to ensure that this will be the typical outcome.
         Because the Site continues to pose risks and requires monitoring, the Region
         should improve its oversight controls for enforcing long-term monitoring
         requirements to provide assurance that the Site remains protective of human
         health and the environment. The Region also does not have sufficient oversight
         and controls for ensuring some data quality.

Recommendations

         We recommend that the Region 3 Regional Administrator:

         2-1    Establish and communicate actions Region 3 would take to enforce the
                provisions in the SSC for the Bruin Lagoon Superfund Site that pertain to
                State O&M performance requirements.

         2-2    Finalize the ongoing revisions and updates to the Site O&M plan that
                address ground water sampling frequency.

         2-3    Correct the data errors in the 2009 Five-Year Review and issue a publicly
                available addendum to that review that identifies the corrected data and
                acknowledges the same error in the 2004 Five-Year Review.

         2-4    Establish management controls to assure that any data produced from
                laboratory reports used in Five-Year Review evaluations of a site are
                accurate.

EPA Region 3 Response and OIG Evaluation

         Region 3 agreed with OIG Recommendations 2-2, 2-3, and 2-4. The Region
         agreed, in part, with Recommendation 2-1 and offered a modified
         recommendation and proposed corrective action that was acceptable. We made
         changes to the report based on Region 3’s comments where appropriate.


                                          7

                                                                         10-P-0217 





For Recommendation 2-1, the Region expressed concern about establishing
criteria for when to enforce the provisions in the SSC (original recommendation),
stating that this may be enforcement confidential information. However, the
Region agreed that any noncompliance with the SSC should be documented. OIG
revised Recommendation 2-1 to state, "Establish and communicate actions
Region 3 would take to enforce the provisions in the SSC for the Bruin Lagoon
Superfund Site that pertain to State O&M performance requirements.” The
Region proposed actions to document noncompliance, including steps when
noncompliance has not been addressed. The Region estimates that it will
document and communicate the new enforcement procedures by November 30,
2010. This recommendation is open with agreed-to actions pending. In its
90-day response to this report, the Region should confirm the completion of this
recommendation or update OIG on the status.

The Region agreed with Recommendation 2-2 and approved the updated O&M
plan on August 30, 2010. This recommendation is closed.

The Region agreed with Recommendation 2-3 and stated that it has drafted an
addendum to the 2009 Five-Year Review that is estimated to be issued by
August 30, 2010. This recommendation is open with agreed-to actions pending.
In its 90-day response to this report, the Region should confirm the completion of
this recommendation or update OIG on the status. Although the milestone for
Recommendation 2-3 has passed, Region 3 has not informed OIG that the
corrective actions for this recommendation are completed or provided an updated
milestone.

For Recommendation 2-4, the Region is currently considering management
controls to ensure data produced from laboratory reports and summarized in the
Five-Year Review are accurate. The Region expects to have a procedure in place
by November 30, 2010. This recommendation is open with agreed-to actions
pending. In its 90-day response to this report, the Region should confirm the
completion of this recommendation or update OIG on the status.

Appendix B provides the full text of the Region’s comments and the OIG’s
evaluation.




                                 8

                                                                                                                                           10-P-0217




                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion       Claimed      Agreed To
    No.      No.                         Subject                          Status1        Action Official          Date          Amount        Amount

    2-1       7     Establish and communicate actions Region 3              O        Regional Administrator,    11/30/10
                    would take to enforce the provisions in the SSC for                    Region 3
                    the Bruin Lagoon Superfund Site that pertain to
                    State O&M performance requirements.

    2-2       7     Finalize the ongoing revisions and updates to the       C        Regional Administrator,    8/30/10
                    Site O&M plan that address ground water sampling                       Region 3
                    frequency.

    2-3       7     Correct the data errors in the 2009 Five-Year           O        Regional Administrator,    8/30/10*
                    Review and issue a publicly available addendum to                      Region 3
                    that review that identifies the corrected data and
                    acknowledges the same error in the 2004 Five-
                    Year Review.

    2-4       7     Establish management controls to assure that any        O        Regional Administrator,    11/30/10
                    data produced from laboratory reports used in Five-                    Region 3
                    Year Review evaluations of a site are accurate.




1    O = recommendation is open with agreed-to corrective actions pending 

     C = recommendation is closed with all agreed-to actions completed 

     U = recommendation is undecided with resolution efforts in progress 


*	 Although the milestone for Recommendation 2-3 has passed, Region 3 has not informed OIG that the corrective actions for this recommendation
   are completed or provided an updated milestone.




                                                                                9

                                                                                                               10-P-0217


                                                                                                             Appendix A

                OIG Sample Results Compared to 

               Region 3 Historical Sampling Results 

The table below shows only the differences found between OIG’s sample results and Region 3’s
historical sampling results. Of the 169 different compounds or compound types there were
15 compounds in the OIG results that were different from the Region’s historical results. The
compounds are acetone, aluminum, barium, cadmium, calcium, cobalt, magnesium, manganese,
nickel, potassium, selenium, sodium, sulfate, vanadium, and zinc.

                                 All results in mg/L (milligrams per liter)
  Sampling                                              Region 3 Historical Sampling Results
  Location                                                                                                     OIG Sample
 (Monitoring   Analysis                Oct-     Mar-        Dec-      Apr-      Jun-       Dec-      Mar-        Results
    Well)        Type       Analyte    1999     2000        2000      2001      2007       2007      2008     November 2007
               dissolved    Barium       -        -           -         -      0.0124     0.0141    0.0125        0.015
                                                                                             B         B
               dissolved     Nickel      -        -             -       -       0.325     0.299     0.310         0.34
               dissolved   Potassium     -        -             -       -       4.58      4.55 B     4.68          7.3
     2A                                                                                               B
               dissolved   Selenium      -        -             -       -      <0.0043    <0.005    <0.005       0.0183
                 total     Selenium    <0.007     -        <0.014       -      <0.0043    <0.005    <0.005       0.0177
               dissolved    Sodium       -        -             -       -       34.3       37.4      40.1         47.3
               dissolved    Barium       -        -             -       -      0.0155     0.014     0.0144        0.018
                                                                                            B          B
               dissolved    Calcium      -        -             -       -        159       149       151           180
                                                                                                       J
               dissolved   Magnesium     -        -             -       -       45.2       40.5      43.2          51
                                                                                                       J
               dissolved   Manganese     -        -             -       -       15.4       13.4      14.8          18
               dissolved   Potassium     -        -             -       -       3.41      2.53 B     2.69          4.7
                                                                                                      B
     2B          total     Potassium    2.22     3.09       2.31      3.19      3.43       2.48      2.58         3.86
                                                                                            B         B
               dissolved   Selenium      -        -             -       -      <0.0043    <0.005    <0.005       0.0204
                 total     Selenium    <0.007   <0.007     <0.007    <0.007    <0.0043    <0.005    <0.005       0.0213
               dissolved    Sodium       -        -             -       -       32.9       33.6      35.2         43.5
               inorganic    Sulfate      -        -             -       -        702       629        712          893
                                                                                                       J
               dissolved      Zinc       -        -             -       -       0.88      0.834      0.952         1.1
                                                                                                       J
                 VOC        Acetone    <0.05    0.0033     <0.0025   <0.0025      -       <0.005    <0.005        0.065
                                                   B
               dissolved   Aluminum      -         -            -       -      0.0641     0.0957     0.142        0.24
                                                                                             J        BJ
               dissolved     Cobalt      -        -             -       -      0.0058     0.0133    0.0116        0.034
                                                                                             B        BJ
               dissolved   Magnesium     -        -             -       -       5.05       3.84       4.2           6
                                                                                             B        BJ
               dissolved   Manganese     -        -             -       -       0.287      0.587    0.485          1.5
     3B                                                                                      B
               dissolved     Nickel      -        -             -       -      0.0113     0.0141    0.0134        0.029
                                                                                                       B
               dissolved   Potassium     -        -             -       -       1.48       1.45      1.45          2.7
                                                                                                       B
               dissolved    Sodium       -        -             -       -       15.9           15    15.5          17
               inorganic    Sulfate      -        -             -       -       35.2       30.7      27.1         57.9
               dissolved      Zinc       -        -             -       -      0.0581     0.0688    0.0513       0.0973
                                                                                             J         J




                                                          10

                                                                                                                         10-P-0217 



   Sampling                                                       Region 3 Historical Sampling Results
   Location                                                                                                              OIG Sample
  (Monitoring        Analysis                    Oct-      Mar-       Dec-      Apr-      Jun-       Dec-       Mar-       Results
     Well)             Type         Analyte      1999      2000       2000      2001      2007       2007       2008    November 2007
                     dissolved     Aluminum        -         -          -         -       0.116     0.0556     0.0883       0.18
                                                                                                       B         BJ
                     dissolved      Barium         -         -           -        -      0.0391     0.039 B    0.0391       0.041
                                                                                                                  B
                     dissolved     Cadmium         -         -           -        -      0.00051   0.00063    0.00074       0.001
                                                                                                      B           B
                     dissolved       Cobalt        -         -           -        -      0.0161    0.0183      0.0152       0.023
                                                                                                      B          BJ
      4B             dissolved    Manganese        -         -           -        -       0.62      0.823      0.543         1.1
                     dissolved     Potassium       -         -           -        -       3.01       2.98      3.21          3.8
                                                                                                      B         B
                     dissolved     Selenium        -         -           -        -      <0.0043    <0.005    <0.005        0.01
                     inorganic      Sulfate        -         -           -        -       43.4       44.4      42.8         48.5
                     dissolved        Zinc         -         -           -        -      0.0558     0.056     0.0466       0.0697
                                                                                                                 J
                     dissolved     Aluminum        -         -           -        -       3.47       3.29      3.34         4.03
                                                                                                                 J
                     dissolved      Barium         -         -           -        -       0.02      0.0214    0.0218        0.025
                                                                                                       B         B
                     dissolved      Calcium        -         -           -        -       45.2       48.1      48.0          56
                                                                                                                 J
                     dissolved    Magnesium        -         -           -        -       9.85       10.6      10.5          12
      5A                                                                                                         J
                     dissolved    Manganese        -         -           -        -       12.1           12    12.5          14
                     dissolved     Potassium       -         -           -        -       4.07       4.36      4.19          5.7
                                                                                                      B         B
                     dissolved     Selenium        -         -           -        -      <0.0043    <0.005    <0.005       0.0134
                     dissolved      Sodium         -         -           -        -       21.1       27.2      26.1         33.2
                     dissolved      Barium         -         -           -        -      0.0215     0.0212    0.0224        0.023
                                                                                                       B         B
                     dissolved      Calcium        -         -           -        -        114       112       113           120
                                                                                                                 J
                     dissolved    Magnesium        -         -           -        -       26.9       26.2      27.0          28
      5B                                                                                                         J
                     dissolved     Potassium       -         -           -        -       6.28       6.18      6.37          7.9
                     dissolved     Selenium        -         -           -        -      <0.0043    <0.005    <0.005       0.0205
                     dissolved      Sodium         -         -           -        -        51        57.5       59          68.8
                     dissolved      Calcium        -         -           -        -        640       650       624           710
                                                                                                                J
                     dissolved     Potassium       -         -           -        -       59.8       58.4      73.2          100
                       total       Potassium     65.9       70        67.3      69.7      61.2           64    71.9          97
      6A
                     dissolved      Sodium         -         -           -        -        266       287       296           340
                       total        Sodium        235      256         223      283        266       298       293           340
                     dissolved     Vanadium        -         -           -        -      0.0384     0.0447    0.0426        0.051
                                                                                                       B         B
                     dissolved      Calcium        -         -           -        -       23.6       23.5      27.4          31
                                                                                                                 J
                     dissolved       Cobalt        -         -           -        -      0.0367     0.0529    0.0443        0.072
      7A                                                                                                        BJ
                     dissolved    Manganese        -         -           -        -       3.94       4.99      4.62          5.9
                     dissolved     Potassium       -         -           -        -       3.07       2.78      3.27          3.6
                                                                                                      B         B
                     dissolved     Potassium       -         -           -        -       4.26       4.33      4.34          5.9
                                                                                                      B         B
      8B               total       Selenium     <0.007    <0.007     <0.007    <0.007    <0.0043    <0.005    <0.005       0.0108
                     dissolved      Sodium         -         -           -        -       56.2       49.8      54.7          63

Source: OIG and Region 3 sampling data.


           J – The method blank is contaminated with this chemical. 

           B – Estimated result. Result is less than the laboratory reporting limit. 

           < – Indicates that the contaminant was not found in the sample above the value after the less than sign. 





                                                                    11
                                                                                    10-P-0217


                                                                                Appendix B

EPA Region 3 Response to Draft Report and OIG Evaluation

            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                                   REGION III 

                               1650 Arch Street 

                    Philadelphia, Pennsylvania 19103-2029 





MEMORANDUM                                 July 13, 2010

TO:              Carolyn Copper
                 Director of Program Evaluation
                 Hazardous Site Issues
                 Office of Inspector General

FROM:            Shawn Garvin, Regional Administrator /s/
                 Office of the Regional Administrator (3RA00)

SUBJECT:         Response to the Draft Evaluation Report: EPA Should Improve
                 Oversight of Long-Term Monitoring at Bruin Lagoon Superfund Site in
                 Pennsylvania, Project No. 2008-545

Thank you for the opportunity to review and comment on the draft OIG evaluation report, the
Office of Inspector General’s (“OIG”) Draft Evaluation Report dated June 15, 2010, EPA Should
Improve Oversight of Long-Term Monitoring at Bruin Lagoon Superfund Site in Pennsylvania.
Outlined below are the responses to the Office of Inspector General’s (“OIG”) Draft Evaluation
Report dated June 15, 2010.

General Comments on the Draft Report

Chapter 1: Background

1. Paragraph 2, 3rd Sentence: The sentence beginning “Due to background ….” The region
proposes to delete this sentence and replace with the following:

The 1986 Record of Decision (ROD) documented that the quality of groundwater in the area
of Bruin Lagoon was poor due to the local mining and oil industry in the area. This finding
was evidenced by high iron, manganese, sulfate, and pH values which exceeded secondary
drinking water standards in background wells.

   OIG Response 1: We have made the requested change to reflect the description used in the
   September 1986 ROD.


                                              12

                                                                                      10-P-0217 





2. Paragraph 2, 6th Sentence: The sentence beginning “According to the Region …”. The region
proposes to replace with the following:

According to the 1986 ROD for the Site, the Remedial Action Objective for the Site was to
“contain, reduce, and/or eliminate site contaminants identified as representing possible
sources of exposure to human and other potential receptors.” Therefore, the selected remedy
included onsite stabilization of the sludge with a multilayer cap and post closure monitoring of
groundwater to ensure the remedial action was effective in reducing the impact of the Site on
the groundwater.

   OIG Response 2: We have made the requested change to reflect the description used in the
   September 1986 ROD.


Chapter 2: Oversight Gaps and Undetected Errors

1. 	 1st Paragraph, 2nd Sentence: Modify the sentence beginning “Region 3 managers …..”

   Region 3 managers said that based on approximately 10 years of monitoring data, the
   region used its enforcement discretion to not use its oversight authority to require
   Pennsylvania to conduct the groundwater sampling.

   OIG Response 3: We have incorporated the change into the report. However, OIG has kept
   the wording that the decision was undocumented and OIG records support 9 years of
   monitoring data.


2. 2nd	 Paragraph, Page 5: Recommend modifying “Other than sporadic evidence of contact with
   the State project manager..” to read:

   As stated above, the RPM made several contacts with the State project manager regarding
   the groundwater monitoring, however, Region 3 used its enforcement discretion and did
   not enforce the SSC.

   OIG Response 4: We revised the wording to reference OIG evidence obtained during this
   review. It is consistent with 'several contacts.'


3. 2nd Paragraph, 2nd to last sentence: “Although these…..April 2010”

   A revised O&M Plan is expected to be finalized by August 30, 2010.

   OIG Response 5: OIG has added text to reflect the Region's statement that a revised and final
   O&M plan is expected by August 30, 2010.




                                              13

                                                                                         10-P-0217 



4. Transcription Errors, last paragraph: “In February 2009 we …”

      The OIG provided the region with emails informing the region that there were
      discrepancies in the tables from the 2004 Five Year Review. The region was still in the
      process of verifying whether the OIG’s findings were correct and these issues were still in
      the discussion phase. Also, the discrepancies did not have any impact on the
      protectiveness determination which is the main purpose of the Five Year Review. The
      2009 Five Year Review was issued on September 17, 2009, and the OIG provided the final
      conclusions regarding the discrepancies on September 29, 2009. Therefore, it is the
      region’s opinion that this sentence should be removed from the Draft because it implies
      the region was purposely ignoring the errors which was not the case.

      OIG Response 6: We informed the Region of the errors in February 2009. On September 24,
      2009, we sent a memo to the Region updating it on the OIG’s progress on the project. The
      memo included a second notification of the errors in the 2004 Five-Year Review. When first
      informed of the errors, the Region acknowledged the errors and cited transcription errors as the
      cause. Although OIG did not formally recommend regional action to address the errors until
      the draft report was issued, we believed the Region would take prudent and reasonable actions
      to fix the errors prior to the release of the 2009 Review. OIG has not determined that the
      Region purposely ignored the errors and we have modified report references to address that
      possible perception.

Recommendations

2-1      Establish criteria for when Region 3 would enforce the provisions in the SSC for the
         Bruin Lagoon Superfund Site that pertain to the O&M performance requirements.

2-2      Finalize the ongoing revisions and updates to the Site O&M Plan that address ground
         water sampling frequency.

2-3      Correct the data errors in the 2009 Five Year Review and issue a publicly available
         addendum to that review that identifies the corrected data and acknowledges the same
         error in the 2004 Five Year Review.

2-4      Establish management controls to assure that any data produced from laboratory reports
         used in the Five Year Review evaluations of a site are accurate.

Corrective Actions

2-1	     The Region has worked with PADEP to update the Operation and Maintenance Plan for
         the Site which among other things includes an annual monitoring requirement. PADEP
         currently has an O&M Contractor to implement the O&M Plan. To establish criteria for
         when to enforce the SSC would be difficult to predict and would likely be considered
         enforcement confidential. Therefore, the Region does not concur that criteria can be
         established for when to enforce an SSC. However, as an alternative, the region concurs
         that any non-compliance should be clearly documented so that if necessary, an




                                                 14

                                                                                       10-P-0217 



       enforcement action can be considered. Therefore, the following is proposed as a
       corrective action:

       In the event that PADEP is not complying with the SSC, the RPM will consult with
       Office of Regional Counsel and document the non-compliance in a letter for signature by
       the Director, Office of Superfund Site Remediation to PADEP. If the non-compliance is
       not addressed, the region will send a follow-up letter from the Director, Hazardous Sites
       Cleanup Division to PADEP’s Environmental Program Manager. If compliance is still
       not addressed, the program will consult with the Office of Regional counsel to determine
       the necessary actions to ensure that PADEP is in compliance with the SSC for the Bruin
       Lagoon Site.

       OIG Response 7: OIG accepts the Region's explanation and proposed corrective action.
       OIG has revised Recommendation 2-1 to state: "Establish and communicate actions
       Region 3 would take to enforce the provisions in the SSC for the Bruin Lagoon Superfund
       Site that pertain to State O&M performance requirements.” In a follow-up communication
       on 08/23/10, the Region provided an estimated completion milestone date of November 30,
       2010 for documenting the new enforcement procedures and communicating them to the
       State and other relevant parties. This recommendation is open with agreed-to actions
       pending. In its 90-day response to this report, the Region should provide OIG an update
       on the status of its corrective actions for Recommendation 2-1.

2-2    The Region concurs and the final revisions are currently being implemented. It is
       anticipated the O&M plan will be approved by August 30, 2010.

       OIG Response 8: Region 3’s proposed corrective action for Recommendation 2-2 meets
       the intent of the recommendation. This recommendation is open with agreed-to actions
       pending. In its 90-day response to OIG’s final report, the Region should provide OIG an
       update on the status of its corrective actions for Recommendation 2-2.

2-3	   The Region concurs. An Addendum to the 2009 FYR is drafted and will be issued by
       August 30, 2010. Once finalized the FYR Addendum will be available to the public
       through the internet.

       OIG Response 9: Region 3’s corrective action for Recommendation 2-3 meets the intent of
       the recommendation. This recommendation is open with agreed-to actions pending. In its
       90-day response to OIG’s final report, the Region should provide OIG an update on the
       status of its corrective actions for Recommendation 2-3.

2-4	   The Region concurs. Management controls are being considered to ensure data produced
       from laboratory reports and summarized in the Five Year Review are accurate. The
       Region anticipates having a procedure in place by November 30, 2010.

       OIG Response 10: Region 3’s corrective action for Recommendation 2-4 meets the intent
       of the recommendation. This recommendation is open with agreed-to actions pending. In
       its 90-day response to OIG’s final report, the Region should provide OIG an update on the
       status of its corrective actions for Recommendation 2-4.




                                              15

                                                                                   10-P-0217


                                                                               Appendix C

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Regional Administrator, Region 3
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation, Office of Solid Waste
       and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 3
Inspector General




                                             16

